SUPREME COURT OF THE UNITED STATES
NO. 20-997
ARLANE JAMES, IN RE: WILLIE GIBBONS;
JRG, A MINOR, BY HIS MOTHER AND LEGAL
GUARDIAN, IKEYA CRAWFORD; AND DKL
AND LMG, MINORS, BY THEIR MOTHER AND
LEGAL GUARDIAN, ANGEL STEPHENS
v.

Petitioners,

NOAH BARTELT,
Respondent.
CERTIFICATE OF SERVICE
As required by Supreme Court Rule 29(5), I certify that on May 12,
2021, Respondent’s brief in opposition was served on the following
individuals, who consented to electronic service in accordance with this
Court’s April 15, 2020 General Order:
Barbara E. Ransom
Law Office of Barbara E. Ransom
3000 Atrium Way
Suite 200
Mt. Laurel, NJ 08054
barbara.ransom@me.com
I declare under penalty of perjury that the forgoing is true and
correct.

JEREMY M. FEIGENBAUM

Date: May 12, 2021

